WAIV
VER
SUPREME cOURT OF THE UNITED STATES
No.

20-1603

Susan Bennett

AFSCME Council 31, AFL-CIO, et al.
Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
I

am

filing this waiver on behalf of all respondents.

T only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

AFSCME Council 31, AFL-CIO; AFSCME Local 672.

Please check the appropriate box:
I am a member ofthe Bar of the Supreme Court of the United States. (Filing Instructions: File a

signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

O

I am not presently a member ofthe Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,

Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:

6/15/21

Date:

(Type or print) NameJacob Karabell

Mr

OMs.

Firm

Bredhoff & Kaiser, PLLC

Address

805 15th St NW, Ste. 1000

City&State

Washington, DC

Phone

(202) 842-2600

O Mrs.

OMiss

Zip 20005
Email jkarabell@bredhoff.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Jeffrey Michael Schwab, Counsel for Petitioner
CC

